GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

January 14, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 20-222, Goldman Sachs Group, Inc. v. Arkansas Teacher Retirement System
Dear Mr. Harris,
I serve as counsel to respondents in the above-captioned case. By this letter, respondents
consent to the filing of any amicus curiae brief in this case in support of either party or of neither
party, provided that the brief otherwise complies with the Rules of this Court.
Please let me know if you require any further information. Thank you very much for your
time and assistance.
Very truly yours,

Thomas C. Goldstein

cc: Petitioners’ counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

